No. 20-315

 

 

In the Supreme Court of the United States

JOSE SANTOS SANCHEZ AND SONIA GONZALEZ,

Petitioners,
v.

ALEJANDRO N. MAYORKAS, SECRETARY, UNITED
STATES DEPARTMENT OF HOMELAND SECURITY, et al.,

Respondents.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT

BRIEF OF DISTRICT OF COLUMBIA,
MASSACHUSETTS, CALIFORNIA,
CONNECTICUT, HAWAII, ILLINOIS, MAINE,
MARYLAND, MICHIGAN, MINNESOTA,
NEVADA, NEW JERSEY, NEW MEXICO,
NEW YORK, OREGON, PENNSYLVANIA,
RHODE ISLAND, VERMONT, VIRGINIA,
AND WASHINGTON AS AMICI CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,902 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 1, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
